No. 20-1111

IN THE

upreme Court of tije

iptate5

INTERNATIONAL ASSOCIATION OF BRIDGE,
STRUCTURAL, ORNAMENTAL, AND REINFORCING
IRON WORKERS, LOCAL 229, AFL-CIO,
Petitioner,
v.
NATIONAL LABOR RELATIONS BOARD,
Respondent.
On Petition For Writ of Certiorari To the United
States Court,of Appeals for the Ninth Circuit
REPLY TO BRIEF IN OPPOSITION

David A. Rosenfeld
Counsel of Record
Weinberg, Roger & Rosenfeld
1375 55th Street
Emeryville, California 94608
courtnoticees@unioncounsel,net
drosenfeld@unioncounsel.net
Telephone: (510) 3371001
Attorneys for Petitioner

Mosaic - (301) 927-3800 - Cheverly, MD

1

TABLE OF CONTENTS
Page

ARGUMENT
CONCLUSION

1
14

111

TABLE OF AUTHORITIES
Page
Federal Cases
Agostini v. Felton,
521 U.S. 203 (1997)
Barr v. Am. Ass'n of Political
Consultants, Inc.,
140 S. Ct. 2335 (2020) (Barr)

13, 14

5, 6, 10

Cent. Hudson Gas & Elec. Corp. v. Pub.
Serv. Comm'n,
447 U.S. 557 (1980)

4

Citizens United v. FEC,
558 U.S. 310 (2010)

7

Communications Workers v. NLRB,
No. 20-1044, 2021 WL 1437212 (D.C.
Cir. Apr. 16, 2021)
Eastex. Inc. v. NLRB,
437 U.S. 556 (1978)
Edward J. DeBartolo Corp. v. Florida
Gulf Coast Building & Construction
Trades Council,
485 U.S. 568 (1988) (DeBartolo)
Expressions Hair Design v.
Schneiderman,
137 S. Ct. 1144 (2017)

12
6

5, 9

7

iv
TABLE OF AUTHORITIES (CONT'D)
Page
Fla. Star v. B.J.F.,
491 U.S. 524 (1989)

3

Giboney v. Empire Storage & Ice Co.,
336 U.S. 490 (1949)

7

International Brotherhood of Electrical
Workers v. NLRB,
341 U.S. 694 1951

passim

International Longshoremen's Ass'n v.
Allied International, Inc.,
456 U.S. 212 (1982)

10

Janus v. Am. Fed'n of State, County, &
Municipal Emps., Council 31,
138 S. Ct. 2448 (2018) (Janus)

6

Matal v. Tam,
137 S. Ct. 1744 (2017)

7

NAACP v. Claiborne Hardware Co.,
458 U.S. 886 (1982)

10

NLRB v. Iron Workers Local 433,
850 F.2d 551 (9th Cir. 1988)

14

NLRB v. Ky. River Cmty. Care, Inc.,
532 U.S. 706 (2001)

4

NLRB v. Retail Store Emps. Union,
Local 1001,
447 U.S. 607 (1980) (Safeco)

7, 8, 9

V

TABLE OF AUTHORITIES (CONT'D)
Page
NLRB v. Teamsters Union Local No. 70,
668 F. App'x 283 (9th Cir. 2016),
cert. denied, 137 S.Ct. 2214 (2017)

13

Reed v. Town of Gilbert,
576 U.S. 155 (2015) (Reed)

9, 10

Sec. & Exch. Comm'n v. Chenery Corp.,
318 U.S. 80 (1943)

4, 11

Snyder v. Phelps,
562 U.S. 443 (2011)
Sorrell v. IMS Health, Inc.,
564 U.S. 552 (2011) (Sorrell)
United States v. Alvarez,
567 U.S. 709 (2012)

3, 6, 9

5, 6, 7, 10

7

Constitutions
First Amendment

passim

Federal Statutes
National Labor Relations Act, 29 U.S.C.
151 et seq.
NLRA

2
passim

NLRA, 29 U.S.C. 158(b)(4)(i)(B)

12, 13

NLRA ยง 8(b)(4)(ii)(B), 29 U.S.C.
158(b)(4)(ii)(B)

8, 9

1
ARGUMENT
1.
The Board has placed squarely before
this Court whether International Brotherhood of
Electrical Workers v. NLRB, 341 U.S. 694 (1951)
(IBEW), should be overruled in whole or in part.
Because the secondary boycott statute has already
been definitively interpreted to prohibit the
expression evident in this case, there is no viable
constitutional avoidance doctrine argument that
eludes this conflict.
However, the Court could deconstruct IBEW to
hold that it only prohibits picketing, not speech.
That is contrary to the Board's position and would
leave unresolved the question of whether peaceful
picketing would be prohibited if the speech involved
in this case is protected by the First Amendment.
That result is equally untenable.
The Board's brief in opposition highlights why
this Court should grant this petition. The Board
attempts to deflect the analysis away from the
content-based analysis of the dissent in the court
below and of this Court's First Amendment
jurisprudence by submitting that the commercial
speech doctrine applies. As we explain in this reply,
that doctrine is not only wholly inapplicable, but the
Board's retreat to that argument demonstrates that
this Court needs to conclusively clarify that the First

2
Amendment applies to labor speech intended to
correct an injustice in the workplace.
The brief in opposition concedes that the
union representative engaged only in expressive
activity, speech, and there was no other conduct
involved. The Board agrees that the union agent
sought support in a dispute between the petitioner,
Local 229, and an employer, Western Concrete
Pumping (WCP), over that other employer's payment
of low wages. Another union had the same dispute
with that employer and was picketing. Local 229
sought to join that dispute over the failure of that
employer to pay adequate wages.
The Board does not contest the proposition
that the protest over WCP's low wages was a lawful
dispute. The Board does not dispute that Local 229
and the employees of Commercial Metals Company
could protest the low wages paid by WCP. The Board
does not contest that the individual or collective
choice of the employees to leave the job would not be
prohibited by the National Labor Relations Act, 29
U.S.C. 151 et seq. (NLRA), and would be protected by
various federal and state laws including the
Constitution. The Board only claims one thing is
unlawful: that a union agent asked employees to
support the union's position in the dispute.
The Board's attempt to portray IBEW as
standing for the proposition that speech is prohibited

3
fails. The brief in opposition does not address the
extensive analysis of the dissent of Judge Berzon,
App. 4a-24a. See also the separate dissent of Judge
Bumatay. App. 24a-28a.
The brief in opposition relies on just one phrase
from IBEW: "The words 'induce or encourage' are
broad enough to include in term every form of
influence and persuasion." Br. in Opp. 12.This runs
counter to this Court's repeated reminders that "the
reach of our opinion is limited to the facts before us."
Snyder v. Phelps, 562 U.S. 443, 460 (2011); see also
Fla. Star v. B.J.F., 491 U.S. 524, 533 (1989) ("[T]he
sensitivity and significance of the interests presented
* * * counsel relying on limited principles that sweep
no more broadly than the appropriate context of the
instant case.").
The Board's brief in opposition ignores the fact
that the Board, in its underlying decision which was
enforced, found only the picketing to be unlawful.
App. 10a. The statement of the union agent was
used to establish the purpose of the picketing, not an
independent violation. We recognize, as the Board
points out, that several courts have treated IBEWs
broad language as an instruction of the Court
without addressing this constitutional issue.
Nonetheless, it is clear that this Court's opinion in
IBEW did not reach the speech but only the
picketing.

4
4.
The Board newly retreats to the
argument that the speech involved is a form of
commercial speech subject to a less rigorous standard
than strict scrutiny. Br. in Opp. 13-17. This
remarkable pivot to a different argument just
accentuates the vulnerability of IBEW.
The "commercial speech" doctrine is not a
rationale of the administrative agency. It is only the
argument created by its counsel. This Court has long
held that the rationale of the lawyer for the agency is
not acceptable; the agency's rationale is what
matters. See Sec. & Exch. Comm'n v. Chenery Corp.,
318 U.S. 80 (1943) (Chenery); NLRB v. Ky. River
Cmty. Care, Inc., 532 U.S. 706, 715 n.1 (2001) ("We
do not * * substitute counsel's post hoc rationale for
the reasoning supplied by the Board itself.")
The Board has never found that union activity
such as organizing, representation of employees,
bargaining or picketing to be commercial activity or
anything resembling commercial activity. Nor has it
ever found employer speech or other activity by
unions, employers or employees in the context of the
NLRA to be a form of commercial speech. To do so
would be a dramatic turn that would subject all of
the NLRA to a doctrine the Board has never adopted.
Commercial speech is "speech proposing a
commercial transaction." Cent. Hudson Gas & Elec.
Corp. v. Pub. Serv. Comm'n, 447 U.S. 557, 562

5
(1980). This Court rejected the Board's argument
that peaceful communication about a labor dispute is
a form of commercial speech in Edward J. DeBartolo
Corp. v. Florida Gulf Coast Building & Construction
Trades Council, 485 U.S. 568, 575-576 (1988)
(DeBartolo). This Court stated that "[t]he handbills
involved here * * * do not appear to be typical
commercial speech such as advertising the price of a
product or arguing its merits, for they pressed the
benefits of unionism to the community and the
dangers of inadequate wages to the economy and
standard of living of the populace." Id. at 575-576.
This Court's explanation in DeBartolo forecloses the
Board's argument.
The Board cites two cases in which this Court,
in dicta, referred to treating commercial speech
differently than other kinds of speech. Br. in Opp.
14-15. See Sorrell v. IMS Health, Inc., 564 U.S. 552,
563-566 (2011) (Sorrell); and Barr v. Am. Ass'n of
Political Consultants, Inc., 140 S. Ct. 2335 (2020)
(Barr). This focus on commercial activity such as
peddling drugs or the regulation of debt collection by
robocalls demonstrates why the effort to prop up
IBEW fails. In both cases this Court found that the
regulation was content-based and did not survive. If
anything, that further points to the demise of IBEW.
Local 229's efforts to inform employees that
another employer is harming the community by not
paying area-standard wages is protected speech that

6
could "be fairly considered as relating to [a] matter of
political, social or other concern to the community."
Snyder v. Phelps, 562 U.S. at 453 (quoting Connick v.
Myers, 461 U.S. 138, 146 (1983)). Such speech
"occupies the highest rung of the hierarchy of First
Amendment values, and is entitled to special
protection." Id. at 452 (quoting Connick, 461 U.S. at
145). See also Janus v. Am. Fed'n of State, County,
& Municipal Emps., Council 31, 138 S. Ct. 2448,
2464, 2471 (2018) (Janus). Thus, such speech cannot
be in the furtherance of a "substantive evil."
There is no more fundamental purpose of the
NLRA than encouraging the efforts of workers
through unions to improve their working conditions
including assisting employees of other employers to
improve their wages. Eastex. Inc. v. NLRB, 437 U.S.
556 (1978).
Even if the Court were to apply some aspect of
Sorrell and Barr, this pure content regulation would
not survive that analysis. Sorrell, 564 U.S. at 565567 (a standard of heightened scrutiny applies where
government "impose[s] a specific, content-based
burden on protected expression"). The regulation is
wholly content content-based, speaker-based and
view-based. The brief in opposition has not sought to
explain how this would survive a lower standard of
scrutiny.

7
This Court has "not hesitated to strike down
complex regulatory statutes when First Amendment
rights are implicated." See, e.g., Citizens United v.
FEC, 558 U.S. 310 (2010); Sorrell (striking down a
state law regulating pharmaceuticals); Expressions
Hair Design v. Schneiderman, 137 S. Ct. 1144 (2017);
and Matal v. Tam, 137 S. Ct. 1744 (2017).1
The NLRA regulatory scheme, founded on
allowing employees to work together to improve their
working conditions, is entitled to the highest
constitutional protection.
5.
The brief in opposition relies upon two
cases that undermine the Board's position. NLRB v.
Retail Store Employees Union, Local 1001, 447 U.S.
607, 616 (1980) (Safeco), is more relevant. Safeco
involved boycotting, including picketing. The brief in
opposition references the plurality opinion. Br. in
Opp. 13.
Safeco's four justice plurality rested its
conclusion that the First Amendment did not protect
secondary consumer picketing on a finding that such
picketing was driven by an "unlawful purpose," i.e.,

The brief in opposition notes Giboney v. Empire Storage & Ice
Co., 336 U.S. 490 (1949) decided before IBEW. This Court has
limited Giboney to "speech integral to criminal conduct."
United States v. Alvarez, 567 U.S. 709, 717 (2012).

8
encouraging customers not to shop at a secondary
business. This Court's two sentence disposition of
this issue is striking in its brevity. Id. at 616.
Neither Justice Blackmun's nor Justice
Stevens' concurrences endorsed the plurality's
"unlawful purpose" rationale. Both recognized the
conflict between section 8(b)(4)(ii)(B) of the NLRA, 29
U.S.C. 158(b)(4)(ii)(B), and the First Amendment.
See Safeco, 447 U.S. at 617 (Blackmun, J.,
concurring) (noting the "plurality's cursory
discussion of what for me are difficult First
Amendment issues"); id. at 618 (Stevens, J.,
concurring) (stating "[t]he constitutional issue,
however, is not quite as easy as the plurality would
make it seem").
Justice Blackmun, invoking the "delicate
balance" argument, wrote that section 8(b)(4)(ii)(B),
survived First Amendment challenge because of the
government's interest in preserving the "delicate
balance" Congress had struck in the NLRA between
the union's freedom of expression and the general
public's freedom from "coerced participation in
industrial strife." Id. at 617-618 (Blackmun, J.,
concurring).
Justice Stevens invoked the "speech-plus"
argument, relied on the concept of "signal" picketing.
Reasoning that picketing is a mixture of conduct and
communication, Justice Stevens opined that in the
"labor context," "the conduct element" (the picketing
itself), more so than the force of the idea expressed, is
what persuades customers to decline to patronize an

9
establishment. Id. at 619 (Stevens, J., concurring).
Here, there is no conduct which could trigger a
"speech plus" analysis. This reasoning has now been
effectively rejected when picketing is involved.
Snyder v. Phelps, supra.
Eight years after Safeco, in DeBartolo the
Court abandoned the Safeco plurality's "unlawful
objective" rationale. In DeBartolo, the Court held
that secondary boycott speech directed towards
consumers was not an "unlawful purpose." 485 U.S.
at 578.
The brief in opposition retreats to the "delicate
balance" analysis: Br. in Opp. 14. The delicate
balance doctrine has been rejected by this Court.
Under Reed v. Town of Gilbert, 576 U.S. 155 (2015)
(Reed), laws that treat speech differently based on
content must be considered content-based
restrictions regardless of the government's interest
or motivations in enacting such laws. See Reed, 576
U.S at 165-166. "[Ain innocuous justification cannot
transform a facially content-based law into one that
is content neutral." Id. at 166. Thus, traditional
government interest-based justifications for section
8(b)(4)(ii)(B), no longer justify insulating its
provisions from strict scrutiny. Unless the
regulation is content neutral, the quality of the
justification is irrelevant. The government concedes
that this regulation is far from content neutral.

10
In International Longshoremen's Ass'n v.
Allied International, Inc., 456 U.S. 212, 226-227 &
n.25 (1982), the Court rejected the claim that
"secondary picketing by labor unions in violation of ยง
8(b)(4) is protected activity under the First
Amendment," because it was "conduct." 456 U.S. at
226. This Court relied upon now rejected analysis
that "[t]he labor laws reflect a careful balancing of
interests," ibid., which Reed rejected.
The brief in opposition's reliance upon dicta in
NAACP v. Claiborne Hardware Co., 458 U.S. 886
(1982), referring to secondary boycotts is not helpful
to the Board's position. Br. in Opp. 13-14. This case
stands for the proposition that boycotts are entitled
to constitutional protection. Almost 40 years later,
the content based scrutiny reaffirmed in Reed rejects
the assertion that a labor boycott lacks such
protection. In today's political climate of boycotts
(and counter boycotts) over so many issues, there can
be no basis to carve out one type of boycott which is
not subject to strict scrutiny.
The brief in opposition's discussion of Sorrell
and Barr (at 14-15) relies upon this mistaken view
that the government can offer an explanation for
content based regulation without having to confront
the strict scrutiny analysis of Reed most recently, in
Barr.

11
The Board finally brushes off strict scrutiny by
repeating the refrain that this is commercial activity
or regulation of commerce. See Br. in Opp. 15-16.
The brief in opposition concludes that IBEW "is a
`restriction fl directed at commerce or conduct," 'not
speech."' Br. in Opp. 16. The Board's attempt to rely
upon the commercial speech doctrine which it has
never asserted before has to be rejected on Chenery
grounds. More importantly, the reliance
demonstrates the inability of the Board to justify
IBEW 70 years later.
The Board does not attempt to engage in any
strict scrutiny analysis. The brief in opposition does
not advance any argument that the Board's
regulation of this speech would survive strict
scrutiny. The Board realizes IBEW is no longer
supportable because strict scrutiny renders it plainly
unconstitutional. The Court should take the brief in
opposition's failure to address strict scrutiny and
rebut the dissent's explanation and analysis as a
concession that IBEW must be overruled on strict
scrutiny grounds as applied in this case, which deals
with speech alone.
In summary, the brief in opposition's
argument leads to the unavoidable conclusion that
IBEW cannot survive current First Amendment
jurisprudence. The Board's desperate grasp for a
rationale undermines IBEW and confirms that it is
invalid.

12
6.
This is self-evident regulation on
speech. The case represents regulation imposed
upon an effort by a union business agent to aid
workers who were underpaid by asking other
workers to leave work in support of the union's
dispute over other unpaid workers. Had there been
no union involved, the request would have been
perfectly lawful. Had the workers themselves
organized such a protest, it would not have been
illegal. Had a community group encouraged the
workers to leave the job, it would not have been
illegal. This singular focus on a labor organization
makes the regulation even more questionable. See
Communications Workers v. NLRB, No. 20-1044,
2021 WL 1437212 (D.C. Cir. Apr. 16, 2021)
(conflicting definitions of informal labor
organizations).
As the brief in opposition concedes, those
workers had a right to leave their job, and the law
permitted them to do so and even protects their right
to leave work to protest the low wages being paid to
other workers. This is classic First Amendment
speech. Asking others to do something which they
can lawfully do and which is morally supportable
must be protected. The NLRA, 29 U.S.C.
158(b)(4)(i)(B), only limits the ability of a union agent
to publish these words. Any other person could have
made the same request, and it would have been
protected speech. Any other person could lawfully
make the opposite request. The employer could tell

13
the workers to go home in support of the dispute.
The workers could decide among themselves to leave
work in support of the effort to raise the wages of
other workers. The sole prohibition is against a
union, and only a labor organization as defined by
the NLRA cannot make that request without running
afoul of the NLRA. This is an inarguable form of
content regulation. See App. 4a-24a. It cannot
survive, and the brief in opposition readily concedes
this.
7.
There is no straightforward circuit
conflict with a case on the specific statutory
provision, 29 U.S.C. 158(b)(4)(i)(B). The reason is
that no court has considered a situation that only
involved speech. Other cases all involved some
element of conduct. Those courts have wrongly relied
upon this Court's dicta in IBEW. The split inarguably
exists with every other circuit all of which have
rejected regulation which is content based.
The lower courts are also effectively blocked by
this Court's holding in Agostini v. Felton, 521 U.S.
203 (1997), that they not overrule decisions of this
Court even where the doctrinal underpinnings have
been discarded. The court below applied this
doctrine in other cases challenging other provisions
in the same secondary boycott laws. See NLRB v.
Teamsters Union Local No. 70, 668 F. App'x 283 (9th
Cir. 2016) cert. denied, 137 S. Ct. 2214 (2017)
(refusing to modify consent judgements prohibiting

14
secondary boycotting relying on Agostini.u. Felton,
supra); and NLRB v. Iron Workers Local 433, 850
F.2d 551 (9th Cir. 1988) (refusing to modify consent
decree prohibiting secondary boycotting). IBEW will
remain in the grasp of Agostini v. Felton, supra,
indefinitely unless this Court takes action and
applies current First Amendment jurisprudence.
The Board cites no other area of the law or
decisions of this Court, where content-based
restrictions on speech have survived. It is only in the
labor law area regulated by the NLRA where unions
(but not employees or employers) are burdened with
these restrictions on speech.
CONCLUSION
For the reasons stated in the petition and in
this reply, the petition for writ of certiorari should be
granted.
Respectfully Submitted
Weinberg, Roger & Rosenfeld
A Professional Corporation

By: David A. Rosenfeld
Attorneys for Petitioner
Dated: April 2021

